No. 19-1009

In the Supreme Court of the United States
ALTERA CORPORATION & SUBSIDIARIES,
Petitioners,
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.
CERTIFICATE OF SERVICE

I, Nicole A. Saharsky, counsel for Altera Corporation & Subsidiaries, hereby
certify that on this 1st day of June, 2020, I caused a copy of the Reply Brief for Petitioners to be served by email and by overnight delivery on the following counsel:
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, D.C. 20530
Tel: (202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel of Record for Respondent
I further certify that all parties required to be served have been served.

Nicole A. Saharsky
Mayer Brown LLP
1999 K Street NW
Washington, DC 20006
(202) 263-3000
nsaharsky@mayerbrown.com

